<html>
<title> - NOMINATIONS OF ALAN C. KESSLER, OF PENNSYLVANIA, TO BE A GOVERNOR OF THE U.S. POSTAL SERVICE, AND CAROL WALLER POPE, OF WASHINGTON, DC, TO BE A MEMBER OF THE FEDERAL LABOR RELATIONS AUTHORITY</title>
<body><pre>[Senate Hearing 106-554]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-554

          NOMINATIONS OF ALAN C. KESSLER AND CAROL WALLER POPE

=======================================================================


                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                 ON THE

 
 NOMINATIONS OF ALAN C. KESSLER, OF PENNSYLVANIA, TO BE A GOVERNOR OF 
 THE U.S. POSTAL SERVICE, AND CAROL WALLER POPE, OF WASHINGTON, DC, TO 
          BE A MEMBER OF THE FEDERAL LABOR RELATIONS AUTHORITY

                               __________

                             MARCH 30, 2000

                               __________

      Printed for the use of the Committee on Governmental Affairs



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
                          WASHINGTON : 2000


_______________________________________________________________________
For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402


                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOSEPH I. LIEBERMAN, Connecticut
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
GEORGE V. VOINOVICH, Ohio            RICHARD J. DURBIN, Illinois
PETE V. DOMENICI, New Mexico         ROBERT G. TORRICELLI, New Jersey
THAD COCHRAN, Mississippi            MAX CLELAND, Georgia
ARLEN SPECTER, Pennsylvania          JOHN EDWARDS, North Carolina
JUDD GREGG, New Hampshire
             Hannah S. Sistare, Staff Director and Counsel
                      Dan G. Blair, Senior Counsel
                      Michael L. Loesch, Counsel,
      International Security, Proliferation, and Federal Services 
                              Subcommittee
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
          Peter A. Ludgin, Minority Professional Staff Member
           Nanci E. Langley, Minority Deputy Staff Director,
      International Security, Proliferation, and Federal Services 
                              Subcommittee
                 Darla D. Cassell, Administrative Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Cochran..............................................     1
    Senator Stevens..............................................     4
    Senator Akaka................................................    11

                               WITNESSES
                        Thursday, March 30, 2000

Hon. Joseph R. Biden, Jr., a U.S. Senator from the State of 
  Delaware.......................................................     1
Hon. Rick Santorum, a U.S. Senator from the State of Pennsylvania     3
Hon. Eleanor Holmes Norton, a Delegate in Congress from the 
  District of Columbia...........................................     4
Alan C. Kessler, of Pennsylvania, nominated to be a Governor of 
  the U.S. Postal Service........................................     6
Carol Waller Pope, of Washington, DC, nominated to be a Member of 
  the Federal Labor Relations Authority..........................     8

                     Alphabetical List of Witnesses

Kessler, Alan C.:
    Testimony....................................................     6
    Biographical information.....................................    15
    Pre-hearing questionnaire....................................    40
Pope, Carol Waller:
    Testimony....................................................     8
    Biographical information.....................................    61
    Pre-hearing questionnaire....................................    71


          NOMINATIONS OF ALAN C. KESSLER AND CAROL WALLER POPE

                              ----------                              


                        THURSDAY, MARCH 30, 2000

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran 
presiding.
    Present: Senators Cochran and Stevens.
    Senator Cochran [presiding.] The Committee will please come 
to order.
    Today we are pleased to have a hearing on the nominations 
of Alan Kessler to be Governor of the U.S. Postal Service and 
Carol Waller Pope to be a Member of the Federal Labor Relations 
Authority.
    Mr. Kessler is nominated to serve a 9-year term as a 
Governor of the U.S. Postal Service, and Ms. Pope is nominated 
to serve a 5-year term as a Member of the Federal Labor 
Relations Authority.
    We welcome you both as well as those who have come to 
introduce you to the Committee this morning.
    At this point, I am going to recognize the senior Senator 
from Delaware--well, he is the senior Senator present from 
Delaware--Mr. Biden, my good friend, and then, Rick Santorum, 
the distinguished Senator from Pennsylvania, who are both here 
to introduce Mr. Kessler.
    Senator Cochran. Senator Biden.

TESTIMONY OF THE HON. JOSEPH R. BIDEN, JR., A U.S. SENATOR FROM 
                     THE STATE OF DELAWARE

    Senator Biden. Well, thank you very much, Mr. Chairman.
    As your colleague who is among the most senior of senior 
Senators from Alaska knows, I am the second-most senior junior 
Senator in the United States, trumped only by Strom Thurmond's 
seniority over Senator Hollings. But I am happy and have been 
satisfied in that position for a long time, and I am honored to 
serve with Bill Roth and to serve, ``under'' Bill Roth.
    Mr. Chairman and Senator Stevens, I have the honor of 
introducing Alan Kessler, who is accompanied by his wife Gail 
and his parents, Alan and Jo, who reside in my home State of 
Delaware. I know you might ask, ``Why is a Senator from 
Delaware speaking on behalf of a resident of Philadelphia?'' 
Well, aside from Alan being a native of my State, as most of 
you know, the geographic distance between my home town of 
Wilmington, Delaware and Philadelphia is only a few short 
miles, and because of this, as Senator Specter and Senator 
Santorum both know, I sometimes get involved in matters that I 
maybe should not be involved in in Pennsylvania, and they 
sometimes get involved in matters to help me in my State of 
Delaware. So it has been a cooperative arrangement which I have 
enjoyed.
    I have known Alan Kessler for about 10 years, Mr. Chairman, 
and aside from being an all-around good guy and native 
Delawarean, he is a graduate of my alma mater as well. He went 
on to earn his juris doctorate from the University of Maryland 
Law School.
    Alan has been extremely involved in the Philadelphia 
community. He was a Township Commissioner in Lower Merion 
Township, which is about as big as my entire State in 
population, literally and not figuratively, from 1988 through 
1999. In 1992, Alan was co-chair of the Mayor's Transition 
Committee for Philadelphia Mayor Ed Rendell, and he is a past 
member of the Philadelphia City Planning Commission.
    In addition, in 1994, he was appointed by the President to 
serve as Vice Chairman of the Presidential Congressional 
Commission on Risk Assessment and Risk Management, and served 
in that post until 1998.
    Currently, he is not only a member of the Executive 
Committee of Philadelphia 2000, but also a member of both the 
Executive Committee of Central Philadelphia Development 
Corporation and the Board of Directors of the Philadelphia 
Industrial Development Corporation.
    And, as if all this were not enough, he has been appointed 
by the Pennsylvania Supreme Court to serve as chairman of the 
Continuing Legal Education Board.
    Finally, Mr. Chairman, Alan is also somewhat of a legend in 
the Philadelphia legal community due to the superb legal skills 
that he has brought to some of the area's most notable legal 
cases. He has represented clients ranging from major 
corporations to local government, and he understands the value 
of public service as well as the bottom line. This is an 
important and unique function that he will bring, I think, to 
the Postal Service Commission, which has a duty to serve all of 
us at a low rate.
    Alan is someone whom I know many residents of the 
Philadelphia area have a great deal of respect and admiration 
for, and I have every confidence that the savvy and talent that 
he brings will make him an excellent addition to the Postal 
Service Board of Governors. Why he would want the job is beyond 
my comprehension, but I am glad he does. Nine years sounded 
like a sentence you were reading out. But it is, as we all 
know, an incredibly important responsibility; it is something 
that the public has come to take for granted as if it is 
automatic. As a matter of fact, with the experience of the four 
of us in here, I think we could probably all agree that the 
public still thinks we somehow control all aspects of the 
Postal Service when in fact we control very little of it. And 
that is why I think it is so important that we pick people who 
we believe will be able to bring professional credentials to 
that responsibility, which will make one of the largest 
operations in the world function well and at the lowest 
possible cost to the consumer--in this case, our constituents.
    There is more to say about Alan, but I will leave that to 
others. Let me just suggest that I think this is a first-rate, 
serious, professional nominee, and I want to thank--not that it 
is my position to do so, and it may sound somewhat gratuitous 
and I do not mean it that way--I want to thank Senator Santorum 
for the way in which he has shepherded this along, and I thank 
him for allowing me to go first.
    I yield the floor.
    Senator Cochran. Thank you very much, Senator Biden.
    Senator Santorum.

TESTIMONY OF HON. RICK SANTORUM, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Santorum. Thank you, Mr. Chairman.
    I always defer to my senior colleagues, and certainly, to 
the very distinguished and terrific Member from Delaware, thank 
you for being here for Alan and for supporting the nomination.
    I support the nomination, and I will not go through all the 
details. I think Joe covered them very adequately. Just let me 
comment on a couple of them.
    First, I think Joe's mention of understanding the bottom 
line is very important. In Alan's work at one of the most 
distinguished law firms in Philadelphia, Wolf Block--a major 
law firm and an incredibly significant player in Philadelphia--
he has represented small companies, he has represented 
entrepreneurs, he has represented larger companies, all in the 
area of defense. Working with those companies, I think he has a 
great understanding of that bottom line and an understanding of 
business and how business works and how it works efficiently 
and best, and that understanding from that perspective coupled 
with, as I know the Senator from Mississippi understands, that 
legal background, which is important to understand the 
intricacies of how to deal with a variety of issues that are 
going to come before the Postal Commission, I think are very, 
very important.
    Second, he has experience in the public sector. He is an 
elected township commissioner. As Joe mentioned, Lower Merion 
Township is one of the fastest-growing townships in 
Pennsylvania. It abuts the City of Philadelphia. It is huge, it 
is diverse, and it is a very complex political dynamic there, 
and he represents that area as a commissioner, has held that 
commission, and again, I think understands the responsibility 
of public service in that regard as well as the other 
appointments that he has had. He has also run for elected 
office.
    So I think Alan brings a very good breadth of experience, 
of background, and of education that could be very helpful to 
this commission.
    As I commented earlier, the Postal Commission is probably 
the least partisan commission I can think of, and someone who 
has a good, solid background and understanding of business and 
a bottom line, who has an understanding of the complexities of 
law that you are going to have to deal with, plus the 
understanding of public service, I think is very well-suited 
for that.
    So I heartily recommend him, and I want to thank you, Mr. 
Chairman, in particular for your willingness to move forward 
expeditiously with this hearing. You did so above and beyond 
the call of duty, and I just want to thank you personally for 
your great generosity in moving this nomination and this 
hearing expeditiously. It is very much appreciated.
    I also want to thank Senator Thompson for his work in 
getting through the interviewing process and helping that along 
the way.
    So, thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Santorum, for your 
eloquent statement as well. Thank you both.
    I am going to now turn to Eleanor Holmes Norton, the 
Delegate from the District of Columbia to the U.S. House of 
Representatives, to introduce Carol Waller Pope.

TESTIMONY OF HON. ELEANOR HOLMES NORTON, A DELEGATE IN CONGRESS 
                 FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Chairman Cochran.
    It is a special pleasure for me to introduce Carol Waller 
Pope, a distinguished citizen of this city who has earned her 
reputation in the very agency to which she has been nominated 
to be a member, the Federal Labor Relations Authority.
    It is particularly gratifying to see a young lawyer work so 
hard and move up the ranks, after having spent virtually her 
entire career at the agency and having served with such 
distinction that the President of the United States would 
indeed name her a member of the Authority, itself.
    As you are aware, this agency deals in a rarified and 
specialized branch of labor law and labor management relations. 
So, it is particularly helpful to have a member who has spent 
virtually her entire career there and has encyclopedic 
knowledge of the Authority and of the field.
    Ms. Pope is particularly well-qualified by professional 
reputation, by educational background and experience, and by 
her demonstrated deep understanding of Federal labor-management 
relations.
    She is also well-qualified by virtue of her law degree from 
Northeastern University Law School, her B.A. from Simmons 
College on whose board she serves, and the additional courses 
on industrial and labor relations she has taken at the Cornell 
University.
    It is with great pride that I recommend her to you and 
believe that her distinguished career speaks for itself as to 
why she was nominated.
    Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Ms. Norton, for your presence 
here this morning and for your introduction of our nominee.
    Before we proceed further, I recognize the attendance of 
our distinguished colleague Senator Stevens from Alaska and 
will yield to him for any opening comments that he might desire 
to make.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. This is a hard meeting for me, Mr. 
Chairman. I am one of the coauthors of the Postal Reform Bill 
that led to the creation of the Board of Governors.
    I am disturbed to learn that if Mr. Kessler is confirmed, 
there will be three members from Pennsylvania out of nine, and 
as a matter of fact, a fourth was born in Pennsylvania. That 
was supposed to be a national board that represents the entire 
United States, and I am just going to have to reserve my 
judgment on whether or not this is a proper thing to do, to 
have four members who are supposed to guide the Postmaster 
General and guide the operations of this enormous entity all 
coming from the same State.
    Thank you very much.
    Senator Cochran. Thank you, Senator.
    The rules of the Committee on Governmental Affairs require 
that an inquiry be conducted into the experience, 
qualifications, suitability and integrity of persons who are 
nominated to serve in offices that are within the jurisdiction 
of the Committee on Governmental Affairs.
    The Committee has received from the nominees all of the 
information that we were required to obtain. In addition, the 
nominees have responded in writing to pre-hearing questions 
submitted by the Committee concerning issues relevant to the 
office to which they have been nominated.
    We have received copies of the nominees' biographical 
information and responses to questions that have been submitted 
to them. These will be placed in the record as part of this 
hearing and are available upon request.
    The financial statements are available for inspection by 
the public in the Committee office.
    The staff of the Committee have reviewed all of this 
information and in addition have examined the Financial 
Disclosure Reports submitted by the Office of Government 
Ethics.
    The Committee's Ranking Member and I have reviewed the FBI 
Background Investigation Reports.
    The Committee rules require that all nominees be under oath 
while testifying before the Committee on matters relating to 
their suitability for office, including the policies and 
programs that the nominees will pursue if confirmed. So at this 
point, I will ask you both to stand and raise your right hand 
to take the oath.
    Do you solemnly swear to tell the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Kessler. I do.
    Ms. Pope. I do.
    Senator Cochran. Please be seated.
    I am going to allow each of you to make any statement or 
comments that you would like to make and to introduce any 
family members who are accompanying you. I met Mr. Kessler's 
parents and wife before the hearing began.
    Mr. Kessler, I am going to recognize you first to introduce 
your family and make any opening statement that you would like 
to before the Committee.

   TESTIMONY OF ALAN C. KESSLER,\1\ OF PENNSYLVANIA, TO BE A 
              GOVERNOR OF THE U.S. POSTAL SERVICE

    Mr. Kessler. Thank you, Mr. Chairman, and let me also thank 
Senator Stevens, members of the staff, and other distinguished 
guests here today.
---------------------------------------------------------------------------
    \1\ Mr. Kessler's Responses to Biographical Information 
Questionnaire and Pre-Hearing Questions appear in the Appendix on pages 
15 and 40 respectively.
---------------------------------------------------------------------------
    First, Mr. Chairman, although Senators Biden and Santorum 
had to run to other business, I would like to say that I am 
extremely honored and grateful to both of them for having taken 
the time out of the very important business that they conduct 
on behalf of the citizens of our great country and from the 
extraordinary demands on their schedules to introduce me this 
morning.
    I am particularly thankful to both of them for the support 
that I have received from such prominent members of this great 
legislative body.
    Mr. Chairman, I would like to introduce my wife Gail, who 
is sitting right behind me, as well as my parents, Jo and Al 
Kessler, and also introduce although they are not here today my 
children, Stacy, Mark, and Dan, who could not be with us 
because of school, although I am sure that if they had known 
they might have had a choice, they would have loved to use this 
hearing or, for that matter, anything else to get out of a day 
of school.
    I am truly humbled and deeply honored to be before you 
today on the matter of my outstanding nomination to serve as a 
Governor of the U.S. Postal Service. I do thank you, Mr. 
Chairman, as Senator Santorum said, for having scheduled this 
hearing and having scheduled it so expeditiously, as well as to 
the members of the staff of both the Committee and 
Subcommittee.
    As Senator Santorum and Senator Biden related to you, while 
my career has spanned over 20 years as a practicing lawyer, I 
have been involved for almost as long in some form of public 
service. From my first appointment in 1983, almost 17 years 
ago, by the then Mayor of Philadelphia to a board position 
overseeing building regulations to my subsequent appointments 
by two successive mayors to a number of other city board 
positions, including the city's License and Inspection Review 
Board, the City Planning Commission, Philadelphia Industrial 
Development Corporation and Central Philadelphia Development 
Corporation, I have dedicated a significant part of my career 
to serving the city in which I have lived and practiced my 
profession.
    I have also served, as Senators Santorum and Biden 
discussed, as an elected official in a suburban township with a 
population of approximately 58,000 residents and as such have 
dealt with a full spectrum of issues facing local governments, 
including budgetary and fiscal issues, public safety, public 
works, land development, and recreation matters. By the way, in 
that office, I dealt with a potential closing and relocation of 
a Postal Service facility.
    I have been appointed by the Pennsylvania Supreme Court to 
chair its Continuing Legal Education Committee, which oversees 
mandatory continuing legal education for all Pennsylvania 
lawyers.
    Finally, during the period 1994-1998, I served as vice 
chair of the Presidential Congressional Commission on Risk 
Assessment and Risk Management, a bipartisan commission that 
consisted of Presidential appointees as well as appointees of 
the Senate Majority Leader, Senator Minority Leader, Speaker of 
the House, and others. The Commission held hearings; it issued 
two reports to the White House and to Congress on the issues of 
risk assessment and risk management. In connection with that 
effort, I might add, I had the opportunity to work with both 
Senate and House committee staffers.
    I very much enjoyed my service on that commission, as I 
have in all other areas of public service in which I have been 
engaged for almost 20 years. After we completed the Risk 
Commission's work, I indicated a desire to perform additional 
service on a part-time board or commission at the Federal 
level.
    I expressed my interest in particular in the U.S. Postal 
Service because of some very important projects in which it had 
been involved in my city. I have also been very interested in 
the future of the Postal Service because of the increased 
competition that it will face and does face as a result of 
developing communications technology. This decade therefore 
will witness a critical challenge to an American institution--
part of our national fabric--which has engendered over the 
years such a high degree of confidence and trust from our 
citizens.
    I am intrigued by and very interested in helping the Postal 
Service meet this great challenge.
    As a business lawyer, I have represented a number of 
different business interests, including real estate developers, 
major corporations as well as entrepreneurial companies. I have 
been involved not only in the courtroom, but in negotiations 
and counseling, in an effort to achieve goals while utilizing 
alternative methods to resolve disputes.
    I believe that the cumulative experience that I have gained 
through my practice of law and through my public service will 
enhance my effectiveness on the Board of Governors of the U.S. 
Postal Service.
    I had the very interesting and thought-provoking experience 
of appearing before Committee staff a few weeks ago to address 
a number of issues facing the Postal Service. While I have much 
to learn, I do believe that I have the basic background and a 
fundamental appreciation of those issues.
    I look forward to the great challenges presented by these 
issues and to making what I hope will be a very worthwhile and 
lasting contribution to the business of the U.S. Postal 
Service.
    Once again, I would like to thank you, Mr. Chairman, as 
well as Senator Stevens and the other distinguished Members of 
this Committee and Subcommittee, and staff members, for 
providing me with a hearing on my nomination.
    I thank Senators Santorum and Biden for honoring me today 
with their very gracious introductions, and Senator Specter, 
who could not be with us today but who sent his chief of staff 
to be with me.
    I understand I have taken enough time. It is Carol's turn 
to offer an introduction. But after that, I would be delighted 
to attempt to answer any questions that you might have.
    Senator Cochran. Thank you, Mr. Kessler.
    Ms. Pope, we are happy to have you with us this morning. We 
welcome you and invite you to make any opening statement and to 
introduce any members of your family or other guests that you 
would like to at this point.
    Please proceed.

 TESTIMONY OF CAROL WALLER POPE,\1\ OF WASHINGTON, DC, TO BE A 
        MEMBER OF THE FEDERAL LABOR RELATIONS AUTHORITY

    Ms. Pope. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ Ms. Pope's Biographical Information Questionnaire and Pre-
Hearing Questions appear in the Appendix on pages 61 and 71 
respectively.
---------------------------------------------------------------------------
    I would like to recognize initially my sister, Lynda Butler 
from Philadelphia, who is here representing all of my family--
my elderly mother and sisters in Pittsburgh who could not be 
here today.
    I would also like to recognize members of my extended 
District of Columbia family--Donna Ramos Johnson and Langdon 
Johnson.
    It is important that I recognize Don Wasserman, Chairman of 
the FLRA, and Dale Cabinuss, a Member of the FLRA, who are 
present today. Unfortunately, member Phyllis Segal and the 
Federal Services Impasses Panel Chair Bonnie Castrey were 
unable to attend.
    Also, my boss, the FLRA General Counsel, Joseph 
Swerdzewski, could not be here today, but he is ably 
represented by members of his staff who are also my colleagues 
in the Office of the General Counsel.
    Thank you, Mr. Chairman, for holding this hearing, and I 
would like to thank Congresswoman Norton for her kind words on 
my behalf and for her support.
    I would also like to thank all of the Committee staff for 
their work and for their meaningful assistance in their review 
of my nomination and the scheduling of this hearing.
    I am humbled that President Clinton has nominated me to be 
a Member of the Federal Labor Relations Authority, an agency 
that I have worked in for over 20 years as a career civil 
servant.
    The mission of the FLRA, to exercise leadership in 
promoting stable, constructive labor-management relationships 
that contribute to a more effective and efficient government, 
reaches to the heart of the workings of our democracy. That 
mission has been the cornerstone of my professional life. If 
confirmed by the Senate, I will work with my colleagues to 
ensure that the FLRA fulfills its mission by adjudicating 
disputes fairly, impartially, and expeditiously; also by 
producing quality legal decisions that enhance the stability of 
Federal sector labor relations.
    Just as important, I will work with my colleagues to ensure 
that the FLRA continues its leadership role in assisting labor 
and management in collaboratively resolving their disputes.
    I greatly appreciate the trust and confidence that 
President Clinton has placed in me, and if confirmed, I pledge 
to discharge my duties to the best of my ability.
    Mr. Chairman, I thank you for the opportunity to appear 
today.
    Senator Cochran. Thank you, Ms. Pope.
    We welcome all of the family members and guests who are 
here today.
    We have some standard questions that are required of us 
under our rules and customs to ask of all nominees. I am going 
to go through those at this time and then add a couple of my 
own.
    Is there anything that you are aware of in your background 
that might present a conflict of interest with the duties and 
the office to which you have been nominated, Mr. Kessler?
    Mr. Kessler. Mr. Chairman, the answer to that is no, or at 
least I am not aware of any. We have made full disclosures in 
terms of my financial holdings and my client list. I did 
receive an opinion from the ethics officers of the Postal 
Service who reviewed that and sent a 2-page letter indicating 
that she saw no conflict at this time.
    Senator Cochran. Thank you. Ms. Pope.
    Ms. Pope. No, Senator.
    Senator Cochran. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Kessler. No, I do not, Senator.
    Ms. Pope. No, Senator.
    Senator Cochran. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly-constituted committee of Congress if you are 
confirmed?
    Mr. Kessler. Yes, Mr. Chairman.
    Ms. Pope. Yes, Senator.
    Senator Cochran. Let me ask you, Mr. Kessler, there are 
several issues that are confronting the Postal Service right 
now, and as Chairman of the Subcommittee that has jurisdiction 
over that area of the Committee's responsibilities, I am 
planning to look into a couple of them with some hearings and 
discussions with those who are responsible and interested in 
the issues.
    One is the extent to which the Postal Service should be 
permitted, or is authorized by law, to get outside what would 
normally be considered the traditional scope of handling the 
mail. For example, in electronic communications, there are some 
suggestions that the Postal Service is going to embark on some 
new ways of handling communications, and there is a question 
about whether this is unfair competition with existing private 
enterprise activities in this area.
    Do you have any thoughts or suggestions along this line 
about that issue?
    Mr. Kessler. Mr. Chairman, I certainly hope to the extent 
my nomination comes out of Committee and is voted on that I 
will learn a lot more than I know now, as I have indicated. But 
I do believe that it is clear that the Postal Service does face 
a great challenge over the next several years. The Postmaster 
General has indicated that several billion dollars of revenues 
are at risk because of increased competition from electronic 
mail, and I think that if the Postal Service is going to meet 
those challenges, it is going to have to be innovative and 
creative in terms of keeping abreast with the internet. It has 
done that to a certain extent with PC Postage and other 
initiatives.
    There is an issue, as the Chairman raised, with the fact 
that the Postal Service, some say, has an unfair advantage, but 
on the other hand, just as it does have some advantages, it 
also has disadvantages. It does not have the ability to 
increase rates the same way enjoyed by the private sector. The 
rate process presently takes probably in excess of 10 months. 
The Postal Service, as we all know, has a universal service 
mandate. It is not a mandate that the private sector has.
    So there are advantages and disadvantages. I do agree that 
it is a significant issue and one that I would very much like 
to study and analyze in greater detail, but I do think that the 
Postal Service is going to have to move into the 21st Century, 
including through internet and electronic measures, if it is 
going to hope to compete and not, as the Postmaster General 
said, see a significant diminution in its revenues.
    Senator Cochran. One of the challenges of the Postal 
Service is dealing with the employee unions and other groups 
that are competing for higher wages, salaries, working 
conditions, and all the rest. To what extent does your 
background equip you to deal with the issues of labor and 
management relations that you would bring to this job?
    Mr. Kessler. Mr. Chairman, maybe I ought to defer to my 
colleague, Ms. Pope, and let her answer that question. But I 
have experience--I am not a labor lawyer, but I have general 
experience. When our past mayor took over in Philadelphia in 
1992, the City of Philadelphia was on the brink of financial 
bankruptcy, and it was a matter of bringing the unions in--and 
I had some role in that--and labor and getting them to buy into 
the future of the city; and if that meant making sacrifices in 
some ways, there was no alternative.
    I have had that same experience in behalf of my township, 
Lower Merion Township, as we have seen, at least during the 
1990's, our revenue sources dryed up and an absolute reluctance 
to increase taxes, and that meant considering new initiatives 
like privatization that we did not ultimately embark upon but 
that I felt we had an obligation and a duty to explore fully, 
and we did. In fact, we even went out with an RFP to look into 
privatization in some areas.
    So I think I have the experience to do that. I think that 
part of the trick with labor--and I do not mean to say it is a 
trick--is good communication and trust in getting labor to buy 
into the future. When the Postmaster General says that there is 
a significant potential decline in mail and therefore in 
revenues, it seems to me that that is something that labor 
needs to have a seat at the table on but needs to understand 
the challenges of the future if it in turn wants to have a 
future.
    Senator Cochran. Thank you.
    Ms. Pope, one of the responsibilities of the Federal Labor 
Relations Authority is to promote stability; that was something 
you acknowledged in your statement, and with a 20-year history 
of working with the agency, you are quite familiar with that.
    What do you see as one of the influences or some of the 
influences that you could bring to the challenge of promoting 
stability and dependability of excellence in performance of 
those who work for the Federal Government?
    Ms. Pope. Labor relations is the cornerstone, if you will, 
of an effective government, and in my view, the role of the 
Federal Labor Relations Authority in delivering and deciding 
issues that affect labor-management relations promotes 
stability. Our 20-year history in issuing decisions that 
clarify the statute, identify the parties--labor's and 
management's rights and responsibilities under the statute, 
promotes stability.
    Currently, our work in alternative dispute resolution and 
attempting to assist the parties in developing more 
collaborative relationships also operates to promote stability 
in Federal sector labor relations.
    Senator Cochran. Are there any suggestions that you could 
give to the legislative committee that has jurisdiction over 
this area of the law for reform or changes that would make the 
relationship between the government and its employees more 
stable and more productive?
    Ms. Pope. There are issues and areas that I am not prepared 
to speak about today with respect to legislative reform, 
particularly the scope of bargaining. In my view and in my role 
as a civil servant and as a member of the Federal Labor 
Relations Authority staff, we have attempted to educate the 
parties about the statute and its requirements in an effort to 
promote stability.
    Senator Cochran. Thank you.
    Senator Akaka has joined us. He is the Ranking Member of 
our Subcommittee and my good friend from Hawaii.
    Senator Akaka, I would be happy to yield to you for any 
comments or questions you have of our nominees.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Mr. Chairman. You are a 
good friend and very kind to me, and I want to thank you for 
having this hearing, which is very important to all of us.
    Mr. Kessler, I want to express my appreciation for your 
interest in serving the public as a member of the Board of 
Postal Governors; and to you, Ms. Pope, on your desire to serve 
the agency which you have called home for 20 years, as a member 
of the National Labor Relations Authority.
    You have both led exciting legal careers, as I read--one 
outside the Federal Government, the other within the Federal 
Government--and I am pleased to welcome both of you here today.
    My questions are very brief, Mr. Kessler. I would like to 
know how you will help protect universal service. I ask that 
question because I understand that the workload of the Postal 
Service is changing, and we expect that, given that there will 
be a projected decline in mail volume by 2003. I am interested 
in how you would handle this.
    Mr. Kessler. Senator, I would love to say that I have 
specific measures in mind to address it, but at this point, I 
do not, other than to say as I did discuss earlier, that I 
understand that that is probably the greatest challenge facing 
the Postal Service, and I do think it probably requires a 
combination of factors one of which is potentially--and again, 
I preface this by saying that I am learning and obviously hope 
to learn a lot more--but one of the things that probably needs 
to happen--and I understand there was or may be legislative 
initiatives--is allowing the Postal Service to increase its 
rates somewhat more quickly and expeditiously than it is able 
to now, 10, 11, or 12 months is a long time in today's world, 
when private companies can react on a daily if not even quicker 
basis.
    That is not to say that the method, the procedure in place 
right now is a bad one and that there should not be an 
opportunity for stakeholders to be heard on rate increases or, 
hopefully, rate decreases. It just means that is something that 
maybe can be shortened and improved.
    The Chairman asked me about whether the Postal Service 
should get involved in electronic mail initiatives, the 
internet. It has over the last several years in some respect, 
with postage stamp PC postage. I think the Postal Service needs 
to stay within its traditional area of services and not go 
beyond those services, but nonetheless I think it needs to 
update those services and be able to compete. It has got to be 
able to compete, and all the things that I have discussed today 
I think are important in that respect, including the need to 
bring labor into the mix, the need to continue to automate and 
to spend the money that has been spent over the last couple of 
years on automation. And in that respect, I believe automation 
alone has saved the Postal Service over the last year or two 
over $208 million.
    So I think that a combination of all those things has to be 
in place to allow the Postal Service to effectively compete 
over the next decade.
    Senator Akaka. Well, as you know, it will really demand 
some creative thinking as to how the Postal Service is going to 
deal with the decline in the mail load it receives. And as you 
point out, with the new technologies that are coming out, even 
those of us in Congress have to alter the way we work now that 
we have computers instead of filing cabinets. So our staffs and 
the Members have to shift in the way we do things here, and we 
find that we are doing more than we did before.
    Ms. Pope, as the ranking member on the Federal Services 
Subcommittee, I am always interested in labor-management 
relations. Given your service of 20 years on the FLRA, I would 
be very interested in hearing your thoughts on the issue of 
labor-management relations.
    Ms. Pope. We are in a period of some change in Federal 
labor relations, 5 years ago, starting to embark on a 
collaborative effort to have labor and management work together 
outside traditional litigation and adversarial means. A lot of 
progress has been made in the last 5 years, and a lot has 
happened in my 20-year career with respect to the development 
of the law in Federal sector labor relations.
    There is a lot of promise and expectations, if you will, on 
the part of both sides, labor and management, as we move 
forward and further develop areas of the law and look to 
cement, collaboration and nonadversarial methods of dispute 
resolution, all to promote a more effective and efficient 
government.
    Senator Akaka. As you know, labor issues and problems have 
changed over a period of time and will continue to change. I 
was interested in what you thought you would be facing, and I 
thank you for your comments.
    Mr. Chairman, thank you very much.
    Senator Cochran. Thank you, Senator Akaka. We appreciate 
your participation in the hearing.
    Again let me welcome and commend those who have been 
nominated for these important responsibilities in our Federal 
Government. We appreciate your cooperation with our Committee.
    We have no further questions at this time, although 
Senators have an opportunity to submit written questions if 
they so choose, and we hope you will respond to any that are 
submitted in a timely fashion. The record will remain open for 
those questions and also any statements that Senators might 
want to put in the record.
    That concludes the hearing. We stand adjourned.
    [Whereupon, at 10:41 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4249.001

[GRAPHIC] [TIFF OMITTED] T4249.002

[GRAPHIC] [TIFF OMITTED] T4249.003

[GRAPHIC] [TIFF OMITTED] T4249.004

[GRAPHIC] [TIFF OMITTED] T4249.005

[GRAPHIC] [TIFF OMITTED] T4249.006

[GRAPHIC] [TIFF OMITTED] T4249.007

[GRAPHIC] [TIFF OMITTED] T4249.008

[GRAPHIC] [TIFF OMITTED] T4249.009

[GRAPHIC] [TIFF OMITTED] T4249.010

[GRAPHIC] [TIFF OMITTED] T4249.011

[GRAPHIC] [TIFF OMITTED] T4249.012

[GRAPHIC] [TIFF OMITTED] T4249.013

[GRAPHIC] [TIFF OMITTED] T4249.014

[GRAPHIC] [TIFF OMITTED] T4249.015

[GRAPHIC] [TIFF OMITTED] T4249.016

[GRAPHIC] [TIFF OMITTED] T4249.017

[GRAPHIC] [TIFF OMITTED] T4249.018

[GRAPHIC] [TIFF OMITTED] T4249.019

[GRAPHIC] [TIFF OMITTED] T4249.020

[GRAPHIC] [TIFF OMITTED] T4249.021

[GRAPHIC] [TIFF OMITTED] T4249.022

[GRAPHIC] [TIFF OMITTED] T4249.023

[GRAPHIC] [TIFF OMITTED] T4249.024

[GRAPHIC] [TIFF OMITTED] T4249.025

[GRAPHIC] [TIFF OMITTED] T4249.026

[GRAPHIC] [TIFF OMITTED] T4249.027

[GRAPHIC] [TIFF OMITTED] T4249.028

[GRAPHIC] [TIFF OMITTED] T4249.029

[GRAPHIC] [TIFF OMITTED] T4249.030

[GRAPHIC] [TIFF OMITTED] T4249.031

[GRAPHIC] [TIFF OMITTED] T4249.032

[GRAPHIC] [TIFF OMITTED] T4249.033

[GRAPHIC] [TIFF OMITTED] T4249.034

[GRAPHIC] [TIFF OMITTED] T4249.035

[GRAPHIC] [TIFF OMITTED] T4249.036

[GRAPHIC] [TIFF OMITTED] T4249.037

[GRAPHIC] [TIFF OMITTED] T4249.038

[GRAPHIC] [TIFF OMITTED] T4249.039

[GRAPHIC] [TIFF OMITTED] T4249.040

[GRAPHIC] [TIFF OMITTED] T4249.041

[GRAPHIC] [TIFF OMITTED] T4249.042

[GRAPHIC] [TIFF OMITTED] T4249.043

[GRAPHIC] [TIFF OMITTED] T4249.044

[GRAPHIC] [TIFF OMITTED] T4249.045

[GRAPHIC] [TIFF OMITTED] T4249.046

[GRAPHIC] [TIFF OMITTED] T4249.047

[GRAPHIC] [TIFF OMITTED] T4249.048

[GRAPHIC] [TIFF OMITTED] T4249.049

[GRAPHIC] [TIFF OMITTED] T4249.050

[GRAPHIC] [TIFF OMITTED] T4249.051

[GRAPHIC] [TIFF OMITTED] T4249.052

[GRAPHIC] [TIFF OMITTED] T4249.053

[GRAPHIC] [TIFF OMITTED] T4249.054

[GRAPHIC] [TIFF OMITTED] T4249.055

[GRAPHIC] [TIFF OMITTED] T4249.056

[GRAPHIC] [TIFF OMITTED] T4249.057

[GRAPHIC] [TIFF OMITTED] T4249.058

[GRAPHIC] [TIFF OMITTED] T4249.059

[GRAPHIC] [TIFF OMITTED] T4249.060

[GRAPHIC] [TIFF OMITTED] T4249.061

[GRAPHIC] [TIFF OMITTED] T4249.062

[GRAPHIC] [TIFF OMITTED] T4249.063

[GRAPHIC] [TIFF OMITTED] T4249.064

[GRAPHIC] [TIFF OMITTED] T4249.065

[GRAPHIC] [TIFF OMITTED] T4249.066

[GRAPHIC] [TIFF OMITTED] T4249.067

[GRAPHIC] [TIFF OMITTED] T4249.068

[GRAPHIC] [TIFF OMITTED] T4249.069

[GRAPHIC] [TIFF OMITTED] T4249.070

                                  <all>

</pre></body></html>
